STATE oFALABAMA

OFFICE OF THE ATTORNEY GENERAL
5OI VVASHINGTONAVENUE
P.O. BOXgOOtS2

STEVEN T. MARSHALL
ATTORNEYGENERAL

MONTGOMERY, AL 3613001 52

1334124a.73o0

April 12, 2027
Honorable Scott Harris
Chief Deputy Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543

Re: McWhorter u. Dunn
Case No. 2O-1302

Dear Mr. Harris:

I am writing to request an extension of time to file the State of
Alabama's brief in opposition in the above-styled case pursuant to
Rule 30.4, Sup.Ct.R. The State's brief in opposition is due in this
Court on April 19, 2021. Due to numerous conflicts, including that I
have had other court obligations related to the restartf reopening of
Alabama's courts after the extended COVID shutdown/reduced incourt proceedings and I also had a family emergency that has caused
me to be unable to work for most of the past 2 weeks, undersigned
counsel for the State of Alabama requests an additional 21 days. The
State's brief in opposition would then be due on May lO,2O2t.

Thank you for your assistance in this matter.
Sincerely,

s/ James R. .[fouts
James R. Houts
Deputy Attorney General

cc: Benjamin E. Rosenberg
beni amin. rosenberg@dechert. com

